                                                                                 Office Of Inspector General
                                                                                 Office Of Audit Services
        DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                 Region II
                                                                                 Jacob K. Javlts Federal Building
                                             September 8, 2008                   26 Federal Plaza
                                                                                 New York, NY 10278 .



Report Number: A-02-07-01055

Richard F. Daines, M.D.
Commissioner
New York State Department of Health
14th Floor, Corning Tower
Empire State Plaza
Albany, New York 12237

Dear Dr. Daines:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Follow-Up Audit of the Medicaid Drug Rebate Program in
New York." We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the principles of the Freedom of Information Act, 5 u.s.c. § 552, as amended by
Public Law 104-231, OIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Brenda Ryan, Audit Manager, at (212) 264-4677 or through e-mail at
Brenda.Ryan@oig.hhs.gov. Please refer to report number A-02-07-01055 in all correspondence.

                                             Sincerely,




                                            ~
                                                          f. fckAC
                                              ames P. Edert
                                               egional Inspector General
                                               for Audit Services


Enclosure
Page 2 - Dr. Richard Daines


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Dlinois 60601
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





   FOLLOW-UP AUDIT OF THE

    MEDICAID DRUG REBATE

    PROGRAM IN NEW YORK





                    Daniel R. Levinson

                     Inspector General


                     September 2008

                      A-02-07-01055

                    Office of Inspector General.
                                      http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficienc)' throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations..

Office ofInvestigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Of~e    ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIGin all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





   FOLLOW- UP AUDIT OF THE

    MEDICAID DRUG REBATE

    PROGRAM IN NEW YORK





                    Daniel R. Levinson

                     Inspector General


                     September 2008

                      A-02-07-01055

                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVES~RY


BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act (the Act). For a manufacturer's covered outpatient drugs to be eligible for
Federal Medicaid funding under the program, the manufacturer must enter into a rebate
agreement with the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates
to the States. CMS, the States, and drug manufacturers each undertake certain functions in
connection with the drug rebate program. In New York, the Department of Health (the State
agency) administers the Medicaid drug rebate program.

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in
49 States and the District of Columbia (A-06-03-00048). Those audits found that only four
States had no weaknesses in accountability for and internal controls over their drug rebate
programs. As a result of the weaknesses, we concluded that States lacked adequate assurance
that all of the drug rebates due to the States were properly recorded and collected. Additionally,
CMS did not have reliable information from the States to properly monitor the drug rebate
program.

In our previous audit ofthe New York drug rebate program (A-02-03-01009), we determined
that the State agency produced timely rebate billings and collections in accordance with
sections 1927(b)(1) and 1927(b)(2) of the Act. However, we identified weaknesses in processes
and controls for rebate billings, collections, dispute resolutions, and quarterly reporting. We
recommended that the State agency:

    •	 work with CMS to consider cost-effective measures that could achieve additional savings
       of approximately $3.3 million a year ($1.65 million Federal share) from entities entitled
       to discounts under section 340B of the Public Health Service Act (340B entities) that do
       not bill the State agency at discounted prices;

    •	 strengthen its processes and controls for rebate billings, cash receipts, and collections in
       order to properly report the aged outstanding rebate amount to CMS on the "Medicaid
       Drug Rebate Schedule" (Form CMS-64.9R);

    •	 improve its processes and controls to ensure timely recording, endorsement, and deposit
       of rebate funds; effective resolution of disputes; and the tracking and verification of
       interest due on rebate payments;

    •	 ensure that the Federal Government receives the appropriate share of rebates for drugs for
       family planning services (approximately $730,000 in additional rebates a year); and

    •	 use the estimate of $350.6 million in outstanding rebates ($175.3 million Federal share)
       as of June 30, 2002, as a starting point for a viable accounts receivable system for the
       rebate program.




                                                  1
The State agency agreed with our findings and recommendations with the following exceptions:
the State agency did not agree with the use of the term "uncollected rebates" when referring to
the total rebate balance and did not agree with the amount identified as uncollected rebates.

This current review of New York is part of a nationwide series of reviews conducted to
determine whether States have addressed the weaknesses in accountability for and internal
controls over their drug rebate programs found in the previous reviews. Additionally, because
the Deficit Reduction Act of 2005 required States as of January 2006 to begin collecting rebates
on single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.

OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the New York drug rebate program and
(2) established controls over collecting rebates on single source drugs administered by
physicians.

SUMMARY OF FINDINGS

The State agency implemented the recommendations from our prior audit that related to­
achieving additional savings from 340B entities; ensuring timely recording, endorsement, and
deposit of rebate funds; tracking and verifying interest due on late or disputed rebate payments;
and crediting the Federal Government with the appropriate share of rebates for family planning
drugs. The State agency partially implemented the recommendations related to properly
reporting aged outstanding rebate amounts on its Form CMS-64.9R, effectively resolving
disputes, and using the estimated amount of outstanding rebates as a starting point for a viable
accounts receivable system. In addition, the State agency established controls over collecting
rebates on single source drugs administered by physicians.

The State agency implemented a new accounts receivable system which greatly improved the
overall operation of New York's drug rebate program, including its ability to track and identify
outstanding rebates and to verify interest due on late or disputed rebates. However, when the
State agency developed the system, it did not include any outstanding or disputed rebates for the
period January 1, 1991, through March 31, 1999. Although the State agency maintains this
information in hard copy files, it does not have a complete accounting of outstanding rebates for
this period. As a result, the ending balance reported on the Form CMS-64.9R is understated
because it does not reflect outstanding and disputed rebates for the period January 1, 1991,
through March 31, 1999. Without a comprehensive accounting, the State agency cannot
effectively pursue resolution of all outstanding rebates.




                                                 ii
RECOMMENDATIONS

We recommend that the State agency:

   •	 identify outstanding and disputed rebates for the period January 1, 1991, through

      March 31, 1999, and include these rebates in its accounts receivable system; and


   •	 ensure that the aged rebate amount reported on its Form CMS-64.9R reflects all

      outstanding and disputed rebates.


STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State agency agreed with our recommendations. The
State agency indicated that it has begun developing a model accounts receivable system for
tracking rebates for the period January 1, 1991, through March 31, 1999, which will interface
with the State agency's existing system. The State agency further indicated that, after the
development is complete and data is entered into the system, outstanding and disputed rebates
for the period January 1, 1991, through March 31, 1999, will be reflected in the aged rebate
amounts reported on the Form CMS-64.9R.

The State agency also indicated that the draft report did not entirely describe its comments on our
previous audit. Specifically, the State agency indicated that it did not fully agree with the
findings from the previous audit. Rather, the State agency indicated that it had disagreed with
the amount identified as uncollected rebates. We revised our report accordingly. The State
agency's comments appear in their entirety as the Appendix.




                                                111
                               TABLE OF CONTENTS



INTRODUCTION                                       1


  BACKGROUND                                       1

    Drug Rebate Program                            1

    Physician-Administered Drugs                   1

    Prior Office of Inspector General Reports      2

    New York Drug Rebate Program                   3


  OBJECTIVES, SCOPE, AND METHODOLOGY               .3

    Objectives                                      3

    Scope                                           3

    Methodology                                     4


FINDINGS AND RECOMMENDATIONS                       .4


  IMPLEMENTATION OF PRIOR RECOMMENDATIONS          5


  PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS       6


  RECOMMENDATIONS                                  6


  STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR

  GENERAL RESPONSE                                  6


APPENDIX

  STATE AGENCY COMMENTS




                                            iv
                                            INTRODUCTION


BACKGROUND


Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

the Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer's covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with eMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program.

Pursuant to section II of the rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug's average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on CMS Form-64.9R, "Medicaid Drug Rebate
Schedule." This is part of the CMS Form-64, "Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program," which summarizes actual Medicaid expenditures for each
quarter and is used by CMS to reimburse States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of 2005 (DRA) amends section 1927 of the Act and
requires States, as of January 1,2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. l Single source
drugs are commonly referred to as "brand name drugs" and do not have generic equivalents.




'This provision of the DRA expands the requirement to certain multiple source drugs administered by physicians
afterJanuary 1, 2008.


                                                        1
Prior Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in
49 States and the District of Columbia? Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate assurance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the New York drug rebate program, we determined that the Department
of Health (the State agency) produced timely rebate billings and collections in accordance with
sections 1927(b)(1) and 1927(b)(2) of the Act. However, we identified weaknesses in processes
and controls for rebate billings, collections, dispute resolutions, and quarterly reporting. 3

We recommended that the State agency:


    •	 work with CMS to consider cost-effective measures that could achieve additional savings
       of approximately $3.3 million a year ($1.65 million Federal share) from entities entitled
       to discounts under section 340B of the Public Health Service Act (340B entities) that do
       not bill the State agency at discounted prices;


    •	 strengthen its processes and controls for rebate billings, cash receipts, and collections in
       order to properly report the aged outstanding rebate amount to CMS on the Form CMS­
       64.9R;

    •	 improve its processes and controls to ensure timely recording, endorsement, and deposit
       of rebate funds; effective resolution of disputes; and the tracking and verification of
       interest due on rebate payments;

    •	 ensure that the Federal Government receives the appropriate share of rebates for drugs for
       family planning services (approximately $730,000 in additional rebates a year); and

    •	 use the estimate of $350.6 million in outstanding rebates ($175.3 million Federal share)
       as of June 30,2002, as a starting point for a viable accounts receivable system for the
       rebate program.

The State agency agreed with our findings and recommendations with the following exceptions:
the State agency did not agree with the use of the term "uncollected rebates" when referring to
the total rebate balance and did not agree with the amount identified as uncollected rebates.




Z"Multistate Review of Medicaid Drug Rebate Programs" (A-06-03-00048), issued July 6,2005; Arizona was not
included because it did not operate a drug rebate program.

3"Medicaid Drug Rebate Program in New York State" (A-02-03-01009), issued August 18, 2004.


                                                      2

New York Drug Rebate Program

In New York, two offices within the State agency (the Office of Health Insurance Programs and
the Fiscal Management Group) and the State's fiscal agent are responsible for performing all
drug rebate program functions. The State agency reported an outstanding drug rebate balance of
$278,655,704 on its June 30, 2007, Form CMS-64.9R. However, $229,416,956 of this amount
related to quarterly billings and was not past due as of June 30,2007. For the quarter ending
June 30, 2007, the State agency reported rebate billings of approximately $287.8 million and
collections of $287.4 million.

Physician-administered drugs are billed to the State Medicaid program on a physician claim form
using procedure codes that are part of the Healthcare Common Procedure Coding System. The
NDC is not included on the physician· claim form. The procedure code identifies a drug by its
active ingredient(s) and identifies the number of drug units (billing units) allowed per
reimbursement for that procedure code. Because rebates are calculated and paid based on NDCs,
each procedure code must be converted to an NDC. Additionally, the billing units for a
procedure code may differ from the units used for rebate purposes (e.g., grams versus liters).
Therefore, to determine rebates, the procedure codes must be converted into NDCs for single
source drugs, and procedure code billing units must be converted into equivalent NDC billing
units.

This current review of the New York State drug rebate program is part of a nationwide series of
reviews conducted to determine whether States have addressed the weaknesses in accountability
for and internal controls over their drug rebate programs found in the previous reviews.
Additionally, because the DRA required States as of January 2006 to begin collecting rebates on
single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the New York drug rebate program and
(2) established controls over collecting rebates on single source drugs administered by
physicians.

Scope

We reviewed the State agency's current policies, procedures, and controls over the drug rebate
program and the accounts receivable data reported on its Form CMS-64.9R as of June 30, 2007.

We performed our fieldwork at the State agency in Albany, New York, and at its fiscal agent in
Rensselaer, New York, from October 2007 through March 2008.




                                               3

Methodology

To accomplish our objectives, we:

   •	 reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
      State Medicaid directors and other information pertaining to the Medicaid drug rebate
      program;

   •	 reviewed the policies and procedures related to the State agency's drug rebate accounts
      receivable system;

   •	 interviewed State agency officials to determine the policies, procedures, and controls that
      related to the Medicaid drug rebate program;

   •	 reviewed copies of Form CMS-64.9R for the period October 1, 2006, through June 30,
      2007;

   •	 reviewed accounts receivable records as of June 30, 2007;

   •	 reviewed State agency invoices for 340B entities that do not bill Medicaid at discounted
      prices;

   •	 interviewed State agency staff to obtain an understanding of the process for tracking and
      verifying interest due on late or disputed rebates;

   •	 determined if the Federal Government received the appropriate share of rebates for
      family planning drugs;

    •	 interviewed State agency staff to determine the processes used in converting physician
       services claims data into drug rebate data related to single source drugs administered by
       physicians; and

    •	 reviewed rebate billings and reimbursements for procedure codes related to single source
       'drugs administered by physicians for the period January 1 through June 30, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The State agency implemented the recommendations from our prior audit that related to
achieving additional savings from 340B entities; ensuring timely recording, endorsement, and
deposit of rebate funds; tracking and verifying interest due on late or disputed rebate payments;


                                                 4

and crediting the Federal Government with the appropriate share of rebates for family planning
drugs. The State agency partially implemented the recommendations related to properly
reporting aged outstanding rebate amounts on its Form CMS-64.9R, effectively resolving
disputes, and using the estimated amount of outstanding rebates as a starting point for a viable
accounts receivable system. In addition, the State agency established controls over collecting
rebates on single source drugs administered by physicians.

IMPLEMENTATION OF PRIOR RECOMMENDATIONS

In our prior audit of the New York drug rebate program, we determined that the State agency did
not:

    •	 have procedures in place to determine whether 340B providers had billed Medicaid at
       discounted prices;

    •	 properly report aged outstanding rebate amounts on its Form CMS-64.9R;

    •	 have adequate procedures to ensure timely recording, endorsement, and deposit of rebate
       funds;

    •	 have an efficient system to monitor and resolve outstanding disputes;

    •	 implement procedures to accrue or verify interest due on late rebates;

    •	 credit the Federal Government with the appropriate share of rebate collections on family
       planning drugs; and

    •	 maintain an effective accounts receivable system for its rebate program.

Since our prior audit, we determined that the State agency has (1) developed procedures to
identify and invoice 340B entities that had not billed Medicaid at discounted prices,
(2) improved procedures for recording, endorsing, and depositing rebate funds, (3) implemented
procedures to track and verify interest due from manufacturers on late or disputed rebates,
(4) revised existing procedures to ensure that the Federal Government is credited with the
appropriate share of rebate collections on family planning drugs, and (5) redesigned its drug
rebates accounts receivable system. However, the State agency cannot readily identify all
rebates requiring resolution. In addition, the aged outstanding rebate amount reported on its
Form CMS-64.9R does not account for all outstanding and disputed rebates.

Pursuant to 42 CFR § 433.32(a), States are required to maintain an accounting system and
supporting fiscal records to assure that claims for Federal funds are in accordance with
applicable Federal requirements. The State agency implemented a new accounts receivable .
system which greatly improved the overall operation of New York's drug rebate program,
including its ability to track and identify outstanding rebates and to verify interest due on late or
disputed rebates. However, when the State agency developed the system, it did not include any
outstanding or disputed rebates for the period January 1, 1991, through March 31, 1999.


                                                  5

Although the State agency maintains this information in hard copy files, it does not have a
complete accounting of outstanding rebates for this period. As a result, the ending balance
reported on the Form CMS-64.9R is understated because it does not reflect outstanding and
disputed rebates for the period January 1, 1991, through March 31, 1999. Without a
comprehensive accounting, the State agency cannot effectively pursue resolution of all
outstanding rebates.

PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

The State agency established controls over collecting rebates for single source drugs
administered by physicians as required by the DRA. The State agency paid $31,198,779 in
claims for physician-administered drugs during the period January 1 through June 30,2006, and
billed manufacturers for rebates totaling $5,828,282.

RECOMMENDATIONS

We recommend that the State agency:

   •	 identify the amount of outstanding and disputed rebates for the period January 1, 1991,
      through March 31, 1999, and include these rebates in its accounts receivable system; and

   •	 ensure that the aged rebate amount reported on its Form CMS-64.9R reflects all

      outstanding and disputed rebates.


STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its July 24, 2008, written comments on our draft report, the State agency agreed with our
recommendations. The State agency indicated that it has begun developing a model accounts
receivable system for tracking rebates for the period January 1, 1991, through March 31, 1999,
which will interface with the State agency's existing system. The State agency further indicated
that, after the development is complete and data is entered into the system, outstanding and
disputed rebates for the period January 1, 1991, through March 31, 1999, will be reflected in the
aged rebate amounts reported on the Form CMS-64.9R.

The State agency also indicated that the draft report did not entirely describe its comments on our
previous audit. Specifically, the State agency indicated that it did not fully agree with the
findings from the previous audit. Rather, the State agency indicated that it had disagreed with
the amount identified as uncollected rebates. We revised our report accordingly. The State
agency's comments appear in their entirety as the Appendix.




                                                6

APPENDIX

                                                                                                            APPENDIX
                                                                                                              Page 1 of3


. , . . STATE OF NEW YORK
_                         DEPARTMENT OF HEALTH
                          Coming Ta.ver The Govemor Nelson A. Rockefeler Empinl State Plaza Albany, New York 12237

Richard F. Daines, M.D.                                                                       wendy E. Saunders
 Commissioner                                                                                    Chief of Staff




                                                    July 24, 2008

           James P. Edett

           Regional Inspector General for Audit Services

           Department ofHealth and Human Services

           Region II

           Jacob Javitz Federal Building

           26 Federal Plaza

           New York, New York 10278


                                                    Ref. No. A-02-07-Q1055

           Dear Mr. Edett:



               Enclosed are the New York State Deparbnent ofHealth's comments on the Department of
           Health and Human Services, Office of Inspector General's draft audit report A-02-Q7-01 055 on
           "Follow-Up Audit ofthe Medicaid Drug Rebate Program in New York State."


               Thank y~)U for the opportunity to comment.

                                                    Sincerely,

                                                     ~&m5
                                                    Wendy E. Saunders
                                                    Chiefof Staff

           Enclosure

    cc:	   Stephen Abbott

           Deborah Bachrach

           Homer Charbonneau

           Ronald Farrell

           Gail Kerker

           Sandra Pettinato

           Robert W. Reed

                                                                                       APPENDIX
                                                                                        Page 2 of3



              New York State Department of Health
                        Comments on the
            Department of Health and Human Services
                   Office of Inspector General
              Draft Audit Report A-02-07-01055 on
                     "Follow-Up Audit of the
           Medicaid Drug Rebate Program in New York"

The following are the New York State Department of Health's (Department) comments
in response to the Department of Health and Human Services, Office of Inspector
General's (OIG) draft audit report A-02-07-01055 on "Follow-Up Audit of the Medicaid
Drug Rebate Program in New York" (A-02-03-01009), including a general comment
followed by the Department's response to the specific recommendation contained in the
report.

General Comment:

The audit report twice states (on pages ii and 2) that the Department agreed with the
OIG findings from the earlier audit (A-02-03-01009), which is not entirely accurate. The
Department's significant disagreement with the amount identified for uncollected
rebates should be addressed and clarified in the latest report. Specifically, Department
comments forwarded October 22, 2004 in response to the earlier audit state:

      "The Department agrees that it must identify a starting point for a viable accounts
      receivable system. However, the OIG audit report seriously overstates the
      amount uncollected. As discussed below, the Department believes that a more
      accurate estimate of uncollected rebates is $31.6 million.

       OIG's recommendation that there is '$350.6 million in uncollected rebates' is
       misleading. At the time of the aUdit, the estimated dispute balance of uncollected
       rebates was $31.6 million, which is the total amount outstanding since the
       inception ofthe program in 1991. The report estimate mischaracterizes rebate
       amounts due and owing for a current quarter as an 'uncollected rebate.' In fact,
       most of this amount is included in the federally prescribed collection process that
       affords manufacturers a set amount of time to review their invoices and remit the
       rebate and, therefore, is not 'uncolleCted.'''

OIG Recommendation:

OIG recommends that the State agency:

   •	 identify the amount of outstanding and disputed rebates for the period January 1,
      1991 through March 31, 1999, and include these rebates in its accounts
      receivable system; and

   •	 ensure that the aged rebate amount reported on its Form CMS-64.9R reflects all
      outstanding and disputed rebates.
                                                                                       APPENDIX
                                                                                        Page 3 of3


                                            2


Department Response:

The Department has initiated development of a model accounts receivable system for
tracking drug rebates during the period January 1, 1991 through March 31,1999, which
will interface with the existing system. Hiring and training of additional staff will be
required to complete this task. Upon completion and data-entry of accounts receivable
data into the new accounting system, outstanding and disputed rebates for the period
January 1, 1991 through March 31, 1999 will be reflected in the Form CMS-64.9R
rebate aging amounts.                                 '
